NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

JONATHAN BEASLEY
Petitioner-Defendant

Vv.

UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Jonathan

Beasley requests leave to file the accompanying Petition for Writ of Certiorari

from the United States Court of Appeals for the Fifth Circuit without prepayment

of costs and to proceed in forma pauperis. Petitioner was represented by counsel

appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the

United States District Court for the Southern District of Mississippi and on appeal

to the United States Court of Appeals for the Fifth Circuit.

1
Date: April 5, 2021.

Respectfully submitted,

Omodare sean o

Federal Public Defender

Office of the Federal Public Defender
Southern District of Mississippi

200 South Lamar Street, Suite 200-N
Jackson, Mississippi 39201
Telephone: 601/948-4284
Facsimile: 601/948-5510

Attorney for Defendant-Petitioner
